No.
IN THE

SUPREME COURT OF THE UNITED STATES
RAFIQ SABIR,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to Supreme Court Rule 39, Petitioner Rafiq Sabir requests leave
to file a petition for a writ of certiorari without prepayment of costs and to proceed
in forma pauperis. Petitioner was previously permitted to proceed in forma
pauperis in the United States District Court for the Southern District of New
York and the United States Court of Appeals for the Second Circuit. Declarations
in support of this Motion are also attached.
Respectfully submitted on September 28, 2021.
/S/ Allie J. Hallmark
ALLIE J. HALLMARK
Counsel of Record
CHARLES D. SWIFT, Director
CONSTITUTIONAL LAW CENTER
FOR MUSLIMS IN AMERICA
100 N. Central Expy, Ste. 1010
Richardson, TX 75080
(972) 914-2507
ahallmark@clcma.org
Counsel for Petitioner

CERTIFICATE OF SERVICE
I, Allie J. Hallmark, hereby certify that on this date, September 28, 2021, a
true and correct copy of Petitioner’s Motion for Leave to Proceed In Forma Pauperis,
together with attached declarations and exhibits, was served on the following via
email:
Brian H. Fletcher
Acting Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
SupremeCtBriefs@usdoj.gov

/s/ Allie J. Hallmark
Allie J. Hallmark
Counsel of Record for Petitioner

